   -                                                   -   --               -                                  1



                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
                                                                                                               1
                                                                                                               I
Case Number: A03050027                                                                       Page 1 of 1       I


                                                                                                               i
         We were informed that five PIS' submitted an NSF proposa? containing plagiarized text3
         describing a piece of equipment4allegedly copied from the manufacturer's web site.5 We found
         similar language on two institutions web sites.6 We asked the lead PI' to provide us with an
         explanation for the text and, if it had been copied fiom one of the sources, to identify it.

         The PI stated that the material had been copied, but not from any of the potential sources
         identified. The text was copied fiom the manufacturer's instruction manual for the instrument.'
         In the PI'S view, the allegation was frivolous and the verbatim-copied text was not plagiarism
         because the PI had used the Trademark (TM) and Registered (0)symbols with the name of the
         equipment. The PI explained that the text was constrained by the extremely technical nature of
         the description and the PI had not wanted to mislead the reader by substituting other language.
         The PI added that the proposal's description of a second piece of equipment9also came from the
         m&ufacturer 's literature.                                             -
         In response to our inquiry, the PI provided the source documentation for the text describing the
         second piece of equipment. It is similarly constrained by its highly technical nature.
                                                                                            I



         We concluded that the small amount of copied text is extremely constrained by the technical
         nature of the description and is not within the portion of the proposal in which the PIS made their
         argument for NSF support. We concluded that through the process of our inquiry the PI has
         developed a clearer understanding of how to handle such text. There was no need to pursue this
         matter further. We strongly encouraged the PI to more c&efully observe the high scholarship
         standards expected by NSF in proposal submissions.

         This case is closed and no M h e r action will be taken in this matter.




          ' Redacted
             Redacted
             Redacted
             Redacted
             Redacted
             Redacted
         '   Redacted
             Redacted
             Redacted



NSF OIG Form 2 (1 1/02)
